IN THE SUPREME COURT OF THE UNITED STATES
********

FERNANDO RODRIGUEZ,
Petitioner,
v.
BOBBY LUMPKIN,
Respondent,
********

I

i ■

l; l]

u i ■; \j1.

ON PETITION FOR WRIT OF CERTIORARI TO
THE FIFTH CIRCUIT COURT OF APPEALS
********

PETITION FOR WRIT OF CERTIORARI
********

FILED
AUG 1 9 2021
suprIm°FcTourt.Lu

FERNANDO RODRIGUEZ
T D C#1 B 5 9 5 6 3
Telford Unit
3 B 9 9 State Huy 9B
Neu Boston, Tx 75570

O

SK

QUESTIONS PRESENTED
Mr.

Rodriguez alleged that his appointed counsel for the

offense in which he is currently incarceratedswitched sides
and worked for the prosecution for the same offense which created
a. conflict of interest for her as a prosecutor, denied him the
effective assistance of his counsel and denied him Due process.

Did the Fifth Circuit err in deferring to the state court ruling
that Mr. Rodriguez was not prejudiced by. counsel switching sides
in this offense.

Did the state court deny Mr.

Rodriguez Due Process when it failed

to follow the jurisprudence of the state legislature and higher
courts .

I

TABLE OF CONTENTS

Questions presented

i

Table of Contents

ii

Table of Authorities

i ii

Opinion below

1

Ourisdiction

1

Statutory and constitutional provisions invoved

2

Statement of the Case

4

Reasons for Granting the Writ
I. The fifth Circuit's misapplication of the standard
of Miller-El warrants this Court's attention
4
Conclusion

5

Appendix
Decicion of the Court of Criminal Appeals

1 a

Decision of the District Court

2a

Decision of the Fifth Circuit

3a

II

TABLE OF AUTHORITIES

CASES
Ex Parte Spain,

5 B 9 S.U.2d 132(Tx.Cr.App.1979)

5

Landers v. State, 256 S.ld.3d 2 9 5 ( Tx . Cr . Ap p . 2 0 0 B )

5

Miller-El v.

4

Cockrell, 537 U.S. 322 (2003)

Statutes
2BU.S.C. §1254

1

2B U . S .C . §2254

2

T.C.C.P. art. 2.01

3

U.S. CONST. AMEND. VI

2

U.S.

2

CONST. AMEND. XIV

III

PETITION FOR WRIT OF CERTIARI TO
THE FIFTH COURT OF APPEALS
The Petitioner, Fernando Rodriguez, respectfully prays that
a Writ of Certiorari issue to review the judgment and opinion
of the Fifth Circuit Court of Appeals, rendered in these pro­
ceedings on April 16,

2021.

OPINION-IBELOU
The Texas Court of Criminal Appeals denied petitioner's writ
without written order, the opinion is unpublished,
in the

appendix to this petition at page 1a.

and reprinted

The District Court

granted Summary judgment for the Respondent, the opinion is
unpublished,

and reprinted in the appendix to this petition at page

2a. The Fifth Court of Appeals denied petitioners application
for a Certificate of Appealabilitythe opinion is unpublished
and reprinted in the appendix to this petition at page 3a.

JURISDICTION
The original opinion of the Fifth Circuit Court of Appeals
was entered April 16, 2021.
The jurisdiction of this Court is invoked under 2B U.S.C.
§1 254 .

1

STATUTORY AND CONSTITUTIONAL PROVISIONS INVOLVED
The following statutory and constitutional provisions ark
involved in this case;.
U.S. CONST. AMEND. VI
In all criminal prosecutions, the accused shall enjoy the
right to a speedy and public trial, by an impartial jury of the
State and district wherein the crime shall have been committed,
which district shall have been previously ascertained by law,
and to be informed of the nature and cause of the accusation;
to be confronted with the witnesses against him;

to have com­

pulsory process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defence.
U.S. CONST. AMEND. XIV
Section 1.

All persons born or naturalized in the United

States, and subject to the jurisdiction thereof,

are citizens

of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States;

nor

shall any State deprive any person of life liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
28 U.S.C.§2254
(a) The Supreme Court, a Justice thereof,

a circuit judge,

or a district court shall entertain an application for a writ
of habeas corpus in behalf of a person in custody pursuant to

2

the judgmentof a State court only on the ground that he is in
custody in violation of the Constitution or laws or treaties
of the United States.
TEX. CODE CRIM. PROC. art. 2.01
If a prosecuting attorney has formerly represented

the de­

fendant in the "same" criminal matter as that currently being
prosecuted, he is statutorily disqualified.

3

STATEMENT OF THE CASE
Mr Rodriguez was convicted of the murder of ZJose Gonzalez.
Two days later Christina Alva mas appointed on February 01,

2011.

She was his attorney until the court appointed Fausto Sosa on
April 06, 2011.

Attorney Alva stated she did not remember any

specific conversations with Mr.

Rodriguez.

Petitioner stated that

he discussed the specifics of the case with Ms. Alva. This fact
was developed at the motion for new trial.
The state Appeals Court affirmed Petitioner's conviction and
The Texas Court of Criminal Appeals denied Discretionary Review.
The Federal District Court granted Respondent's motion for
Summary Oudgement and The Fifth Circuit denied petitioner a
Certificate of appealability.

REASONS FOR GRANTING REVIEW
I. THE FIFTH CIRCUIT'S MISAPPLICATION OF
THE STANDARD OF MILLER-EL WARRANTS
THIS COURT'S ATTENTION

C

The fifth Circuit's opinion misapplied the Miller-El v.
Cockrell, 537 U.S. 322,

336(2003). Specifically whether jurists

of reason could disagree with the district court's resolution .
of his constitutional claims or that jurists could conclude
the issues presented are adequate to deserve encouragement to
proceed further.
The Texas Legislature has ruled petitioner's ground a conflict
of interest.

The legislature has decreed that this conflict

4

of interest is both obvious and actual.
S.U.

Ex parte Spain,

2d 1 32, 1 34 ( Tx . Cr . App . 1 979 ) , Landers v. State,

5B9

256 S.W.3d

295(Tx.Cr.App.2008)
For a prosecuting attorney to "switch sides" in the same
criminal case is an actual conflict of interest and constitutes
a due process violation, even without a specific shouiing of
prejudice.

Landers.

This is the issue that the court's have misinterpreted. At
the motion for new trial and the state habeas hearing the court
focused on making petitioner show harm. In the court's eyes
petitioner could not prove he was harmed by Ms. Alva switching
sides. The Problem with that is he does not have to show any
specific harm. Landers at 304. Jurists of reason could and would
disagree with,

the district court's resolution of this const-

tutional claim.
Because the Fifth Circuit has truncated

the scope of Miller -E.1

v. Cockrell, 537 U.S.322, this Court must grant certiorari.

CONCLUSION
For these reasons,

a writ of Certiorari should issue to review

the judgment and opinion of the Fifth Circuit Court of Appeals.
Respectfully

( Fernaridn

subnyH:ted/;

Rodriguez

Telford Unit
3B99 State Hwy 9B
New Boston, Tx 75570

5

